 INSPECTOR GENERAL STATEMENT ON THE
FEDERAL COMMUNICATIONS COMMISSION’S
    MAJOR MANAGEMENT CHALLENGES
           FISCAL YEAR 2005

    05-AUD-04-08       November 15, 2005




         Office of Inspector General

                   *******

    Federal Communications Commission
                       Inspector General’s Statement:
   Serious Management Challenges of the Federal Communications Commission


Reporting Component Investigations and Fraud
Universal Service Fund

The Telecommunications Act of 1996 codified and modified the Federal
Communications Commission’s (FCC) longstanding policy of promoting universal
telecommunications service throughout the nation. Per FCC direction, the Universal
Service Administrative Company administers the four universal service support
mechanisms of the Universal Service Fund (USF). The four universal service support
mechanisms include: high cost, low income, rural health care, and schools and libraries.
These support mechanisms are funded through mandatory payments from U.S.
telecommunications providers, including local and long distance phone companies,
wireless and paging companies, and payphone providers. USAC provides money directly
to service providers to defray the cost of serving customers who use the
telecommunications services.

Fraud is an inherent risk in the USF core business process: collection, certification, and
disbursement of funds for telecommunications services. As of fiscal year-end 2005, 71
investigations have been initiated. This represents a six percent increase to initiated
investigations since the previous reporting period. Of those investigations, 39 are on-
going and 32 are closed. Investigations have led to indictments as well as subsequent
sentencing relating to fraudulent actions. To date, nine individuals and three corporations
have been indicted and accepted plea agreements in four separate investigations.
Additionally, six corporations and five individuals have been indicted in another case that
is currently scheduled for trial. FCC has taken action to address fraud in the USF
business process; however, additional efforts are needed.

In addition to law enforcement activities, audits conducted of the schools and libraries
support mechanism, commonly referred to as E-rate, disclosed significant potential
recoveries. Currently, these recoveries are in excess of $40 million. Although lesser in
amounts, additional auditor recommended recoveries exist for funds disbursed in the high
cost and low income support mechanisms. FCC has taken action to improve oversight of
the USF program; however, additional efforts are needed. Generally, controls over
management oversight and accountability for receipt of USF funds by beneficiaries have
been materially weak because of inadequate management controls, lack of a sufficient
independent audit program to deter future fraudulent activity, and weaknesses in the
structure of the program.

Furthermore, the Office of Inspector General is aware of enforcement and audit activities
pertaining to the revenue contributed to the USF from the telecommunications industry.
Although FCC’s focus has been to address the disbursement and use of received funds, it
has not fully considered or developed an approach to ensure compliance with contributor
revenue requirements.




                                            1
                       Inspector General’s Statement:
   Serious Management Challenges of the Federal Communications Commission


The Office of Inspector General has been unable to implement effective independent
audit oversight of the USF program because of inadequate resources. In the summer of
2004, the Office of Inspector General and the USF administrator worked to establish a
contract under which these organizations could obtain resources to conduct USF audits
and support USF investigations. As part of this process, a request for proposal was
released in November 2004 and contractor selection was finalized in March 2005. In
April 2005, the USF administrator board of directors approved the selection of
contractors presented by the review team and the USF administrator referred the matter to
the FCC for approval. Subsequent to fiscal year-end, FCC communicated to the USF
administrator that the procurement would need to be re-competed per Federal Acquisition
Regulations. As a result of the subsequent decision by the Commission, the Office of
Inspector General has reinstated planning for USF audits. However, the lack of access to
resources anticipated under the agreement have impeded the ability of the Office of
Inspector General to provide support to Federal investigations.

Telecommunications Relay Service Fund

Similar to the USF, fraud is an inherent risk in the Telecommunications Relay Service
(TRS) fund. The TRS fund compensates providers for the reasonable cost of providing
interstate telephone transmission services that enable a person with a hearing or speech
disability to use such services to communicate with a person without disabilities.

To date, one corporation and one individual have been indicted and accepted settlement
agreements. The agreement includes the return of $2 million disbursed funds and the
forfeiture of related financial assets.


Financial Reporting
Financial Management Weaknesses

FCC does not maintain current and accurate financial data during the course of the year.
As a result, FCC undertakes a massive, manually intensive effort to compile, analyze, and
correct its financial data to prepare accurate financial statements quarterly and at fiscal
year-end. FCC can enhance both its processes and timing of financial reporting practices,
improve its policies and procedures to ensure consistent accounting practices, and
continue its endeavor for an updated, integrated financial management system entity-
wide.

FCC has made progress in correcting financial management weaknesses given the
resources available. However, requests by financial managers for additional resources to
address expanding financial requirements, oversight functions, and Office of Inspector
General recommendations remain outstanding and resources are still required.




                                            2
                       Inspector General’s Statement:
   Serious Management Challenges of the Federal Communications Commission


Recent improvements include the implementation and enhancement of FCC’s cost
accounting system and certain modules of its revenue management system. To address
this challenge, currently FCC is reviewing potential replacements for its core accounting
and general ledger system. Despite these actions, FCC needs to take additional steps to
ensure proper financial management reporting. Specifically, it has not made the major
changes needed to address a long-standing condition in financial reporting. Significant
elements of this condition include the need for:

               •   integrated financial management system(s) within FCC as well as its
                   reporting components;
               •   a cost accounting system that accounts for unit costs per generally
                   accepted accounting principles, provides information for performance
                   measurement, and routinely provides this information to program
                   managers;
               •   complete budgetary accounting for consolidating reporting
                   components;
               •   timely recording and analysis of financial activities for certain
                   accounts;
               •   a complete and thorough process for compiling the entity consolidated
                   statements with minimum errors; and
               •   expanded oversight of component accounting activities.

Financial Management Relationships with Consolidating Component Entities

FCC lacks clear, comprehensive, and accountable relationships with its financial
reporting consolidating component entities, which include the administrators of the
Universal Service Fund, the Telecommunications Relay Services fund, and the North
American Numbering Plan (NANP), as well as their respective service organizations. As
a result, FCC’s consolidated financial reporting process experiences delays, errors, and
recently, attestation impacts.

Primarily, FCC relies on periodic financial and data reporting to compile its consolidated
financial reporting products. To date, FCC accountants and financial managers are not
involved in the financial operations of these entities nor do they possess a comprehensive
understanding of component entity financial or business processes. Specifically, FCC
staff lack complete understanding of each component entity’s: functions, internal
control, information technology aspects, contracted service vendor operations, and other
business applications that derive the component’s periodic reporting. FCC has not
invested resources to obtain this understanding. For many of the component entities and
contracted service organizations, FCC staff only make on-site visits at component
locations if a decision if made to accompany the financial auditors.

FCC’s financial compilation process requires FCC accountants and staff to prepare most
component entity submissions for Federal financial reporting requirements. This is in
direct contrast to a process where the component entity is responsible for the preparation


                                             3
                       Inspector General’s Statement:
   Serious Management Challenges of the Federal Communications Commission


of its financial reporting and FCC accountants act as reviewers and consolidators, a
relationship expected for an organization of FCC’s size and financial balance. The
current FCC relationship is weakened and inefficient, by not placing accountability on
the component entities, thereby diverting needed resources from consolidating reporting
efforts.

The June 30, 2005 interim consolidated financial statements are a current year example of
the effects of this challenge. These statements were submitted late to required Federal
agencies as well as the FCC’s auditors. Additionally, they contained material
unsupported adjustments to balances, as well numerous material adjustments to make
them consistent with other Federal financial reporting and normal account relationships.

Disclaimers of Opinion on FCC Consolidated Financial Statements

FCC senior management has been slow to address, mitigate, and remedy financial issues
which resulted in disclaimers of opinion on FCC’s Fiscal Years 2004 and 2003
Combined Statement of Budgetary Resources and Consolidated Statement of Financing.
Although FCC responded effectively in fiscal year 2004 when a determination, in
concurrence with the Office of Management and Budget, was made regarding material
matters to these statements; management made minimal efforts to address its inability to
make representations concerning the accuracy or completeness of these matters until mid-
August 2005. Additionally, during the interim, between fiscal year opening to August
2005, FCC program and financial management staff were not empowered to address
existing conditions. As stated in the fiscal year 2005 management representation letter,
unfortunately “[FCC] again this year [makes] no representations concerning the accuracy
or completeness of the information…reported as an opening balance on September 30,
2004 or the activity associated with this account[s] during [fiscal year] 2005.”

Relatedly, senior agency management responded untimely and incompletely to formal
inquiries from the Office of Inspector General regarding fundamental audit and
accounting issues pertaining to these material matters. At the close of fieldwork, formal
audit requests and further inquiries for these matters await an informative and effective
response.

Moreover , senior management’s reluctance to sign a management representation letter,
which resulted in disclaimers of opinion for all principal financial statements for fiscal
year 2005, overshadows the continuing issues related to the fiscal years 2004 and 2003
disclaimers of opinion. The President’s Management Agenda (PMA) defines success or
“green” for financial performance as:

   •   an unqualified audit opinion,
   •   with no auditor reported material weaknesses,
   •   no material noncompliance with laws and regulations,
   •   no chronic or significant Antideficiency Act violations,
   •   which is Federal Financial Management Improvement Act of 1996 compliant,


                                             4
                       Inspector General’s Statement:
   Serious Management Challenges of the Federal Communications Commission


   •   no material weaknesses for Federal Managers’ Financial Integrity Act of 1982
       Section 2 and 4, and
   •   submitted to meet reporting deadlines.

For the audit period of fiscal years 2004 and 2005, FCC fails all required elements to be
categorized as “green” in the PMA.


Financial Reporting Components
Throughout its history, FCC created subsidiary organizations and administrative
components, subject to various levels of FCC oversight, to conduct Commission business
and meet the agency mission. Presently, there are three financial reporting components
of the FCC: the Universal Service Fund, the Telecommunications Relay Services Fund,
and the North American Numbering Plan. Fundamentally, these organizations were
created without a complete assessment or determination of how component functions or
responsibilities would comply with Federal laws and regulations, policies, or concepts.
This creates considerable confusion between FCC and its components.

In fiscal year 2003, FCC adopted Commission Order FCC 03-232, the first of what was
expected to be a series of orders defining the applicability of certain laws and regulations
to these organizations and components. Although the order defined the applicability of
certain requirements for two of three current financial reporting components, it did not
address the North American Numbering Plan. Additionally, the scope of the new
requirements was fairly ambiguous as to which relevant provisions of Federal financial
management and reporting statutes and laws it applied. To date, FCC has not issued
similar orders to address this issue, nor clarified the relevancy of the other existing
provisions. Thus, the applicability of key provisions of Federal financial management
and reporting statutes, as well as some in their entirety, remains undecided.

This challenge has existed for multiple reporting periods and continues to exists to date.
During fiscal year 2005, the reporting components addressed by Commission Order FCC
03-232 progressed toward meeting requirements, but much remains to be completed.
Recently, the depth of this challenge was compounded when original subsidiary
organizations contracted with third party service organizations to perform their functions.
An understanding of the applicability of certain laws and regulations addressed in FCC
Order 03-232 is not shared by the service organizations.

Near fiscal year-end 2004, one component’s management informed FCC it would not
meet the implementation date for key elements of Commission Order 03-232. At the
close of fiscal year 2005, key elements noted in 2004 remain to be implemented.
Specifically, the component entity does not satisfy FCC Order 03-232’s requirement for
Federal budgetary accounting. To the best of our knowledge, no temporary, interim, or
corrective actions to mitigate this challenge have been provided to or by FCC
management.


                                             5
                       Inspector General’s Statement:
   Serious Management Challenges of the Federal Communications Commission



Furthermore, bureaus and offices which facilitate reporting component oversight are slow
to address known problem areas and fundamental questions. This observation is not
limited to those directly responsible for component oversight, but to other relative areas
including: legal, planning, financial management, information technology, and senior
and general management. Identified issues and problem areas languish for multiple fiscal
years with limited or no resolution. This fact was evident during fiscal year 2005 as FCC
failed to or significantly delayed responding to inquiries on fundamental matters.
Specifically, fundamental questions from component entities and the Office of Inspector
General remain unanswered or were responded to ambiguously. During fiscal year 2005,
FCC’s actions are still categorized as reactive versus proactive oversight, albeit a slower
approach.


Information Technology and Information Systems Security
As technology advances and our reliance on technology increases, the need for a strong
information technology infrastructure becomes more important. FCC’s operations have
become increasingly more reliant on automated systems and further integration of FCC
data and services with external users via the internet is escalating. Along with explosive
growth in computer connectivity comes the ability to disrupt or sabotage critical
operations, read or copy sensitive data, and tamper with critical processes.

FCC’s information technology control environment and systems security need to be
enhanced. FCC is noncompliant with a number of Federal statutes and policies.
Commission systems have been susceptible to malicious attacks via viruses and worms,
and unauthorized access. Inadequacies and inconsistencies exist in outsourced systems
and network access request process and efforts to develop and test FCC’s contingency
plans have been slow. Additionally, FCC lacks a comprehensive capital asset plan, needs
to further enhance its audit trail facility utilization and review, and strengthen its
password access controls.

FCC has taken steps to address its information technology and information systems
security vulnerabilities. FCC developed an agency-wide security plan and is working
toward compliance with required Federal policies and statutes; however, completion
dates for key items to address this challenge have repeatedly been revised due to budget
constraints. In the area of information system security, FCC successfully tested its
continuity of operations plan during the “Pinnacle 2005” interagency test. Furthermore,
the Commission has begun implementing its capital investment program. The most
visible element of this program is the Information Technology Steering Committee.




                                             6
                       Inspector General’s Statement:
   Serious Management Challenges of the Federal Communications Commission


Revenue Gap
Although FCC collects approximately $280 million in regulatory fees each year, FCC
cannot determine if all required fees are collected. The difference between what is
collected, an amount subject to Congressional determination, and what should have been
collected if all regulated parties fully paid their fees, is deemed a revenue gap.

FCC’s ability to bill regulatory fee payees is significant progress relating to collection of
known payees. During fiscal year 2005, FCC expanded on its capability to bill regulatory
fee payees. In fiscal year 2005, FCC billed 3,164 payees comprising $145.8 million in
regulatory fees. As of fiscal year-end, FCC received $139.6 million of the billed
regulatory fees. Furthermore, FCC purports its billing and assessment represents in
excess of 94% of all regulatory fees owed. However, since FCC does not have a
complete universe of potential regulatory fee payees, it cannot determine the total
regulatory fee subject to collection. FCC’s inability to determine total fee for collection
creates an incomplete universe for facilitating regulatory fee rate assessment in future
years.


Physical Security and Protection of Personnel
This challenge is not unique to FCC. Since September 11, 2001, physical security and
protection of personnel are critical issues in the Federal Government and the United
States in general. As the world experienced the devastating effect of the tsunami,
Hurricane Katrina, and Pakistani earthquake, it reminded us that threats are not limited to
actions of man.

The FCC has taken steps to identify and implement security measures to protect FCC
personnel and its physical infrastructure. Specifically, FCC created a program to inform
personnel regarding potential threats and threat management, prepared measures to
address potential catastrophic events, and made security enhancements to FCC facilities.
In the area of physical security, the Commission significantly upgraded the security of its
Gettysburg facility and has enhanced physical access security to the Portals II building by
installing concrete street barriers. Despite these efforts, the Commission has personnel
and physical infrastructure issues to complete. For example, FCC has not completed its
Business Continuity Plans for key bureaus and offices. Additionally, although most were
completed, some facility security and protection enhancements have not been completed
to date.




                                             7
